                         TESTIMONY OF
                       HAROLD W. GEISEL
                  DEPUTY INSPECTOR GENERAL
                OFFICE OF INSPECTOR GENERAL
                U.S. DEPARTMENT OF STATE AND
           THE BROADCASTING BOARD OF GOVERNORS


                        BEFORE THE


                  UNITED STATES SENATE
  COMMITTEE ON HOMELAND SECURITY AND GOVERNMENT AFFAIRS
     AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT


                            ON


    EFFECTS ON INSPECTOR GENERAL OVERSIGHT OF S. 2139, THE
“COMPREHENSIVE CONTINGENCY CONTRACTING REFORM ACT OF 2012”



                       APRIL 17, 2012




                             1
      Thank you, Chairman McCaskill, Ranking Member Portman, and Members of the
Subcommittee, for the opportunity to discuss our views on strengthening oversight of
government contracts during contingency operations.

         We commend the Subcommittee for its leadership and tenacity in developing this critical
legislation.

        Madam Chairman, the Office of Inspector General (OIG) believes that Senate Bill 2139 is
a positive effort to ensure, among other things, that statutory Inspectors General (IGs) have the
tools needed to provide efficient and effective oversight in the most challenging overseas
environments.

        You have asked for our views on the legislation’s impact on OIG, additional OIG
responsibilities in these operations, the role of the Lead IG in coordinating the oversight effort,
the congressional reporting provisions, and an enhanced hiring authority for IG personnel
directly involved in these audits, inspections, evaluations, and investigations. You also
requested our views on management of logistics contracts, strengthening the suspension and
debarment process, clear lines of authority for contingency contracting support, and how that
support finds its way into the planning and training regimes. Lastly, you asked for our views on
the provisions addressing trafficking in persons.

        The overall effect of this legislation on OIG is significant, but positive and certainly
manageable. OIG agrees with and supports Sections 101 and 103 of this legislation, with three
suggested revisions, which we believe will make this new approach even more efficient and
effective.

IG Funding for Contingency Operations

        First, I suggest a revision to Section 101’s funding request provisions to expressly require
that each contingency operation funding request include an automatic, percentage-based
funding allocation for inspector general oversight. Because the Inspectors General would not be
directly involved in developing such contingency operations funding requests, this statutory
reminder is necessary to ensure adequate OIG contingency funding is factored into any request
submitted to Congress. Including OIG costs at this early stage would ensure that the resulting
contingency appropriation funds the required OIG oversight, as was the case in the American
Recovery and Reinvestment Act (ARRA, Public Law 111-5) where all of the involved IGs were
appropriated a small portion of the overall funding to address new oversight needs associated
with the expanded mission of overseeing ARRA programs.

       While similar mechanisms have appeared in previous funding bills, they have been
included only occasionally. Oversight of contingency contracting is clearly an instance where
such a provision is warranted. Simply stated, the IGs performing the oversight of overseas
contingency operations will need immediate additional funds to offset the unforeseen and
unbudgeted costs of doing business in a contingency environment.

                                                  2
The Lead Inspector General

       Second, Section 103 of the bill would mandate that the Chair of the Council of Inspectors
General on Integrity and Efficiency (or CIGIE) designate a Lead Inspector General for the
Contingency Operation and resolve conflicts of jurisdiction between the Inspectors General
involved in the operation.

        OIG suggests an approach that might be more efficient and expeditious. At the onset of a
particular contingency operation, the three Inspectors General should determine which of them
will lead the oversight effort. One possible method for doing that would be to determine which
agency will be appropriated the largest share of the overseas contingency operations (OCO)
funding. It would follow that the agency with the next highest level of OCO funding would
become the Associate Inspector General for the operation.

       In recent years, departmental OIGs have worked well together to oversee agencies in
contingency operations. For example, conflicts on jurisdiction and work de-confliction have
been resolved efficiently and routinely in both the Southwest Asia Joint Planning Group and the
International Contract Corruption Task Force for work in Iraq, Pakistan and Afghanistan. These
working groups, which are comprised of all IGs working in these countries, meet quarterly and
have been a real success. This approach would save time and simplify the process, just at the
right moment – during the hectic period at the onset of a contingency operation.

Periodic Reporting

       We appreciate the cooperation of the Subcommittee on the provisions for semiannual IG
reporting. OIG suggests a minor clarification to ensure that this reporting would be synchronized
with the OIG’s current semiannual cycle.

        Regarding quarterly reporting, Section 103’s amendment to the Inspector General Act by
inserting a new Section 8L would, at paragraphs (d)(3)(E) and (d)(4)(A) through (F) of that new
section, mandate the Lead IG report quarterly on a large amount of operational financial
information, relating to all federal agencies, specifically including:
   •   Obligations and expenditures;
   •   A project-by-project, program-by-program accounting of incurred costs and projected cost for
       completion;
   •   Operation-related foreign investment revenues;
   •   Related seized or frozen asset information;
   •   Agency operating costs and;
   •   Detailed contract, grant or agreement financial information.

    All of this information is resident within the various respective department or agencies, not
within the participating OIGs. OIG suggests that the affected Departments or agencies be
mandated to provide a periodic stream of data to Congress and the participating Departmental
IGs in a format similar to the List of Contracting Actions and Grants data presentation produced

                                                  3
by the special IGs in their periodic congressional reports. These lists are useful to plan and
prioritize oversight work. They address, though not in complete fashion, the special IG mandates
for reporting, which are identical to the quarterly reporting requirement in Section 103. The
Departmental OIGs can use this information, on a semiannual basis, to further their oversight
mission.

Section 3161 and Rehired Annuitants

        Regarding the provision for Section 3161 hiring authority, OIG appreciates the
Subcommittee’s intent to enhance our contingency oversight capacity by ensuring the IGs have
the right tools to quickly and temporarily hire qualified people who are willing to work in these
environments. Had the previous special IGs not had this authority, they would not have had the
experienced staff that enabled them to be successful in their contingency oversight mission. This
authority gives OIG a surge hiring capacity which is essential to quickly staffing our oversight
response to contingency operations. These additional hiring authorities are critical to
conducting the contingency oversight mission and provide OIG more flexibility and speed to hire
for a contingency environment while simultaneously allowing OIG to retain focus on the rest of
our important mission.

Acquisition Management Structural Changes and Lines of Authority

    Section 111 proposes a new management structure for the procurement of contract services
for a contingency operation. On face value, these provisions might achieve clearer lines of
authority for contracting support. In OIG’s work over the last four years, we have found issues,
conditions, and systemic problems that might have been avoided or lessened by clearer lines of
authority in contracting support. In our previous work in Iraq and Afghanistan, including joint
oversight work with other IGs, we have found profound contract management shortcomings and
some critical internal control problems. The Department agreed with our recommendations,
and we continue to monitor their record of compliance.

    For example, our three joint audits, conducted in 2010 and 2011 with the Department of
Defense Inspector General (DoDIG) on the Afghan National Police Training Program found
numerous issues, such as a lack of planning for the transition in both Departments, contract
oversight issues within the Bureau of International Narcotics and Law Enforcement, a lack of
guidance for the transfer of contract administration from State to DoD, and internal control
issues. In each case, both Departments agreed with our findings and recommendations.

    As another example, OIG has found that the use of contractors to supplement staffing in
support of acquisition management has increased risks. These acquisition staff contractors are
not required to complete annual financial disclosure statements even though they are heavily
involved in the procurement process and may have substantial personal conflicts of interest.
Additionally, these contractors are not government employees, and therefore are not subject to
prosecution under Federal conflict of interest statutes.


                                                4
    The current bill contemplates significant changes to how contracts would be procured and
managed during a contingency operation. Based on our previous work, OIG cannot say whether
or not these proposed structural changes would be effective or efficient. The bill could be
improved with provisions to ensure an adequate number of properly trained contracting officer
representatives (CORs) who are not contractors, but Government employees. OIG inspections,
audits and reviews have noted the lack of properly training CORs as a vulnerability in ensuring
proper monitoring of performance and costs incurred on contracts.

    Changes to U.S. contracting management structures that are enacted should accommodate
the broad differences that can be found from one contingency operation to the next.
Contingency operations are not all alike. Providing security for U.S. personnel in Iraq, for
example, differs from the way it is done in Afghanistan.

Suspension and Debarment Provisions

    OIG supports a robust suspension and debarment system that protects the interests of the
U.S. Government, is fair to all parties, and enhances effective enforcement. OIG believes the
proposed legislation would strengthen the suspension and debarment system.

    OIG believes Section 112 would generally enhance suspension and debarment by ensuring
adequate resources are dedicated to this important function and by providing additional clarity
regarding the organization, roles and responsibilities of those involved in the process. We defer
to the involved agencies, however, for any specific comments regarding the impact of this
legislation (including Sections 112 and 131) on their personnel, resources and organizational
structure.

    Regarding Section 113’s automatic suspensions, OIG strongly supports prompt and effective
suspension and debarment actions to protect the United States Government from additional
exposure to contractors who misappropriate government funds or otherwise engage in criminal
activity. OIG urges further analysis, however, to ensure that vital government operations or
objectives are not inadvertently jeopardized by automatic suspensions.

Combating Trafficking In Persons

         OIG commends the Subcommittee for its efforts in Section 222 to expand and improve
the tools available to combat trafficking in persons (TIP) violations associated with government
contracts. OIG also supports the companion efforts within the Senate and House this year to
combat TIP, including S. 1301 and HR 4259. Because of the overlap among these efforts and the
extensive discussions and comments received by Congress in conjunction with each effort, OIG
urges Congress to combine and fully reconcile these efforts to produce the most effective
legislation possible to address this important issue.

      In addition to supporting the improvements proposed in Section 222, as well as S. 1301
and HR 4259, OIG strongly supports the Department of Justice’s (DOJ) call for a robust and

                                                5
comprehensive Civilian Extraterritorial Jurisdiction Act (CEJA). CEJA would provide clear and
unambiguous criminal jurisdiction to prosecute non-Department of Defense government
contractors and employees for a broad spectrum of overseas misconduct, some of which are TIP
violations but aren’t specifically addressed in the current drafts of Section 222, S. 1301, or HR
4259.

        We do, however, suggest CEJA use the same approach as the Military Extraterritorial
Jurisdiction Act (MEJA) and provide jurisdiction over all conduct outside the United States that
would constitute an offense punishable by imprisonment for more than one year (18 U.S.C.
felony offenses). The MEJA approach provides the greatest flexibility for fighting crime
associated with U.S. overseas activities and reduces the potential that CEJA might be rendered
confusing or obsolete by future amendments to the specific crimes enumerated in 18 U.S.C.

       Thank you, Chairman McCaskill and Ranking Member Portman for this opportunity to
present our views. I am prepared to answer your questions.




                                                6
